No. 19-930
In the Supreme

Court of the United States

__________________
CIC SERVICES, LLC,
v.

Petitioner,

INTERNAL REVENUE SERVICE, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

__________________

BRIEF OF THE KENTUCKY CAPTIVE
ASSOCIATION, INC., MISSOURI CAPTIVE
INSURANCE ASSOCIATION, NORTH CAROLINA
CAPTIVE INSURANCE ASSOCIATION, OKLAHOMA
CAPTIVE INSURANCE ASSOCIATION, AND
TENNESSEE CAPTIVE INSURANCE
ASSOCIATION, INC., AS AMICI CURIAE IN
SUPPORT OF PETITIONER

__________________

WILLIAM YOUNG WEBB
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills Boulevard
Aberdeen, NC 28315
(910) 944-9555

K. SCOTT HAMILTON
Counsel of Record
KEVIN DOHERTY
TONY GREER
DICKINSON WRIGHT PLLC
500 Woodward Avenue, Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com
Counsel for Amici Curiae

February 24, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF THE INTEREST . . . . . . . . . . . . . 1
BACKGROUND ON INSURANCE
REGULATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

Notice 2016-66 imposes a heavy burden on
the public with little or no additional benefit
to the IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

II.

Notice 2016-66 causes ongoing irreparable
harm to the captive insurance industry and
its stakeholders . . . . . . . . . . . . . . . . . . . . . . . 12

III.

Notice 2016-66 violates the Taxpayer Bill of
Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

IV.

Notice 2016-66 invalidates, impairs, and
supersedes laws enacted by States for the
purpose of regulating the business of
insurance, or which imposes a fee or tax upon
such business . . . . . . . . . . . . . . . . . . . . . . . . . 18

V.

Information gathering is a phase of tax
administration procedure that occurs before
the assessment of a tax and the AntiInjunction Act should not apply . . . . . . . . . . 22

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX - Audit Document Request . . . . . . App. 1

ii
TABLE OF AUTHORITIES
CASES
Avrahami v. Commissioner,
149 T.C. 7 (T.C. Aug. 21, 2017) . . . . . . . . . . . . . 10
CIC Services, LLC v. Internal Revenue Service,
925 F.3d 247 (6th Cir. 2019). . . . . . . . . . 23, 24, 25
CIC Services, LLC v. IRS,
936 F.3d 501 (6th Cir. 2019). . . . . . . . . . . . . . . . 23
CIC Services, LLC v. Internal Revenue Service,
2017 WL 5015510 (E.D. Tennessee). . . . . . . . . . 23
Dehoyos v. Allstate Corp.,
345 F.3d 290 (5th Cir. 2003). . . . . . . . . . . . . . . . 19
Direct Mktg. Ass’n v. Brohl,
575 U.S. 1, 135 S. Ct. 1124 (2015) . . . . . . . . . 6, 24
Enochs v. Williams Packing & Nav. Co.,
370 U.S. 1 (1962). . . . . . . . . . . . . . . . . . . . . . . . . 23
Humana, Inc. v. Forsyth,
525 U.S. 229 (1999). . . . . . . . . . . . . . . . . . . . . . . 19
Mayo Found. for Med. Educ. & Research v.
United States, 562 U.S. 44 (2011) . . . . . . . . . . . . 6
National Federation of Independent Business v.
Sebelius, 567 U.S. 519 (2012) . . . . . . . . . . . . 23, 24
Perez v. Mortg. Bankers Ass’n,
575 U.S. 92, 135 S. Ct. 1199 (2015) . . . . . . . . . 2, 5
Reserve Mechanical Corp. v. Commissioner,
T.C. Memo. 2018-86 (T.C. June 18, 2018) . . . . . 10

iii
Saunders v. Farmers Ins. Exchange,
537 F.3d 961 (8th Cir. 2008). . . . . . . . . . . . . 19, 21
Syzygy Insurance Co., Inc., et. al. v. Commissioner,
T.C. Memo. 2019-34 (April 10, 2019) . . . . . . . . . 10
STATUTES AND CODES
I.R.C. § 831(b). . . . . . . . . . . . . . . . . . . . . . . . . . passim
I.R.C. § 6111 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 24
I.R.C. § 6112 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 24
5 U.S.C. § 553(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
15 U.S.C. §§ 1011-1015 . . . . . . . . . . . . . . . . . . passim
15 U.S.C. § 1011 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
15 U.S.C. § 1012 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 9
15 U.S.C. § 1012(b). . . . . . . . . . . . . . . . . . . . . . . . . . 19
15 U.S.C. § 6701(b). . . . . . . . . . . . . . . . . . . . . . . . . . 18
26 U.S.C. § 6671(a). . . . . . . . . . . . . . . . . . . . . . . . . . 24
26 U.S.C. § 7421(a). . . . . . . . . . . . . . . . . . 6, 22, 23, 25
42 U.S.C. § 1981 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
42 U.S.C. § 1982 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
42 U.S.C. §§ 3601 et seq. . . . . . . . . . . . . . . . . . . . . . 19
OTHER AUTHORITIES
Consolidated Appropriations Act of 2018, Pub. L.
115–141 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iv
Dave Du Val, Beware the I.R.S.’s Speeded-Up
Audit, NY Times (Apr. 29, 2015), available at
https://www.nytimes.com/2015/04/30/opinion/
beware-the-irss-speeded-up-audit.html. . . . . . . . 8
https://www.iii.org/publications/a-firm-foundationhow-insurance-supports-the-economy/a-50-statecommitment/captives-by-state . . . . . . . . . . . . . . . 2
Internal Revenue Service, Abusive tax shelters,
trusts, conservation easements make IRS’ 2019
“Dirty Dozen” list of tax scams to avoid (March.
19, 2019), available at https://www.irs.gov/newsroom/
abusive-tax-shelters-trusts-conservationeasements-make-irs-2019-dirty-dozen-list-of-taxscams-to-avoid. . . . . . . . . . . . . . . . . 8, 9, 12, 13, 16
Internal Revenue Service, Instructions for Form
8886, available at https://www.irs.gov/pub/irspdf/i8886.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
IRS takes next step on abusive micro-captive
transactions; nearly 80 percent accept
settlement, 12 new audit teams established,
available at https://www.irs.gov/newsroom/irstakes-next-step-on-abusive-micro-captivetransactions-nearly-80-percent-acceptsettlement-12-new-audit-teams-established . . . 10
IRS update on “micro-captive insurance
transactions”, available at https://home.kpmg/
us/en/home/insights/2020/01/tnf-irs-update-onmicro-captive-insurance-transactions.html. . . . . 9

v
Joint Committee on Taxation, Technical
Explanation of the Revenue Provisions of the
Protecting Americans from Tax Hikes Act of
2015, House Amendment #2 to the Senate
Amendment to H.R. 2029 (Rules Committee Print
114-40), (JCX-144-15), December 17, 2015
. . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 14, 15
Legal Principles Defining the Scope of the Federal
Antitrust Exemption for Insurance, B-304474,
March 4, 2005, available at https://www.gao.gov/
decisions/other/304474.htm . . . . . . . . . . . . . . . . 18
Notice 2015-74, available at
https://www.irs.gov/pub/irs-drop/n-15-74.pdf . . 21
Notice 2016-66, available at
https://www.irs.gov/pub/irs-drop/n-16-66
.pdf. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Once Again SIIA Stands Up For Small Captives
A n d S m a l l B u s i n e s s , a v a i l a bl e a t
https://www.captivatingthinking.com/onceagain-siia-stands-up-for-small-captives-andsmall-business/ . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Protecting Americans from Tax Hikes (“PATH”) Act
of 2015, 129 Stat. 3106-08 . . . . . . . . . . . . . . . . . 12
SIIA calls for guidance on which PATH to take,
available at http://www.captiveinsurancetimes
.com/captiveinsurancenews/article.php?article_
id=4896 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16

vi
SRS Charts the Total Number of Active Captives
for 2018, available at https://www.captive.com/
news/2019/02/25/srs-charts-the-total-number-ofactive-captives-for-2018 . . . . . . . . . . . . . . 9, 15, 22
Taxpayer Bill of Rights: #1, The Right to Be
Informed, available at https://www.irs.gov/news
room/taxpayer-bill-of-rights-1-the-right-to-beinformed-0 . . . . . . . . . . . . . . . . . . . . . . . . 15, 16, 17
Taxpayer Bill of Rights: #4, The Right to Challenge
the IRS’s Position and Be Heard, available at
https://www.irs.gov/newsroom/taxpayer-bill-ofrights-4-the-right-to-challenge-the-irss-positionand-be-heard-1 . . . . . . . . . . . . . . . . . . . . . . . . . 17

1
The Kentucky Captive Association, Inc., Missouri
Captive Insurance Association, North Carolina Captive
Insurance Association, Oklahoma Captive Insurance
Association, and Tennessee Captive Insurance
Association, Inc., submit this brief as amici curiae in
support of petitioner CIC Services, LLC.1
STATEMENT OF THE INTEREST
The aforementioned State organizations (the
“Amici”) are unaffiliated trade organizations
representing the interests of their respective members
mainly within a single given State. The membership of
the State organizations primarily includes captive
insurance companies and their owners, captive
insurance managers, attorneys, actuaries, investment
managers, certified public accountants, and others.
Each of these captive insurance associations promotes
the compliant and solvent operation of captive
insurance companies through professional education,
networking events, and engagement in legislative and
regulatory affairs. A majority of the members of the
boards of directors or executive committees of the
boards of directors of each of these associations voted
to approve the filing of this brief.

1

Pursuant to Rule 37.6, counsel for amici curiae states that no
counsel for a party authored this brief in whole or in part, and no
party or counsel for a party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amici curiae, their members, or their counsel
made a monetary contribution to its preparation or submission.
Counsel for the Amici provided timely notice of the Amici’s intent
to file this brief, and all parties have consented to its filing.

2
Nearly 1,000 captive insurance companies and
related cells are domiciled in and regulated by the
States of Kentucky, Missouri, North Carolina,
Oklahoma and Tennessee. Moreover, many of these
1,000 captive insurance companies are group captive
insurance companies or protected cell captive insurance
companies, each of which houses the captive insurance
programs of a number of unrelated businesses. There
are well over 1,000 unique participants. Nationally,
the scope of the industry is even greater. At least 30
other states have passed captive insurance enabling
legislation, demonstrating a healthy and material
industry in the United States.2
The Amici file this brief with a straightforward
objective: to request that the Court grant certiorari to
review the decision from the Sixth Circuit Court of
Appeals. At a minimum, in drafting its opinion, Amici
ask the Court to consider what the Internal Revenue
Service (“IRS”) did not, namely the detrimental impact
of Internal Revenue Service Notice 2016-66 (Notice
2016-66) on the captive insurance industry. The
Uniform Administrative Procedures Act requires an
agency to allow for a meaningful opportunity to
comment on the proposed rule through the submission
of written data, views, or arguments. See 5 U.S.C.
§ 553(c). Further, this Court has held that an agency is
obligated to respond to significant comments. See Perez
v. Mortg. Bankers Ass’n, 575 U.S. 92, 135 S. Ct. 1199,
1203 (2015). However, the IRS did not allow for a
meaningful opportunity to comment on Notice 2016-66
2

https://www.iii.org/publications/a-firm-foundation-how-insurancesupports-the-economy/a-50-state-commitment/captives-by-state

3
or respond to any significant comments or concerns.
Consequently, the Amici request the Court to consider
the following:
(1)
Notice 2016-66 imposes a heavy burden
on the public with little or no additional benefit
to the Internal Revenue Service (“IRS”);
(2)
Notice 2016-66 causes ongoing irreparable
harm to the captive insurance industry and its
stakeholders;
(3)
Notice 2016-66 violates the Taxpayer Bill
of Rights;
(4)
Notice 2016-66 invalidates, impairs, and
supersedes laws enacted by States for the
purpose of regulating the business of insurance,
or which impose a fee or tax upon such business;
and
(5)
Information gathering is a phase of tax
administration procedure that occurs before the
assessment of a tax, and the Anti-Injunction Act
should not apply.
Further, because the IRS seemingly did not consider
any comments when issuing Notice 2016-66, Amici
believe that Notice 2016-66 should be declared invalid
because the IRS fails to follow the “notice and
comment” protocols of the uniform Administrative
Procedure Act (“APA”). The Amici offer no opinion on
any other particular facts or structure of any insurance
program at issue or otherwise.

4
BACKGROUND ON INSURANCE REGULATION
Insurance Regulation.
State-based insurance regulation has a more than
100-year history of success in the United States.
Congress, in passing the McCarran-Ferguson Act of
1945, exclusively reserved to the States the power to
regulate insurance.
The States, the District of
Columbia, and several territories each participate in
this national system of state-based regulation.
The McCarran-Ferguson Act states that “No Act of
Congress shall be construed to invalidate, impair, or
supersede any law enacted by any State for the purpose
of regulating the business of insurance…” 15 U.S.C.
§ 1012. Since its passage, Congress has concluded that
“the business of insurance, and every person engaged
therein, shall be subject to the laws of the several
States which relate to the regulation or taxation of
such business.” 15 U.S.C. § 1012. As a result, every
State has comprehensive insurance regulation and
oversight capabilities.
At least 35 United States jurisdictions, including
states, territories, and the District of Columbia permit
licensing and regulation of captive insurers. In each of
these domiciles, the applicable regulator has the
authority to grant an insurance license to a company,
after regulatory review and subject to ongoing
oversight. Many States have dedicated staff that
exclusively service and regulate captive insurance.

5
Robust Regulatory Standards.
All domestic domiciles that regulate captive
insurance require each applicant for a license to
complete background checks, maintain certain capital
levels, and provide financial information on demand.
The vast majority also require annual review by
independent actuaries, as well as annual audits by
independent CPAs and/or examinations by the
regulator, among other requirements.
The standards and requirements that domestic
regulators impose on insurance companies, and on
captive insurance companies in particular, are
intended to protect policyholders by ensuring solvency.
The standards and requirements are remarkably
consistent, similar across the country, and can address
all aspects of insurance company operation, including
the subject of the insurance, the characteristics of the
insurance policies, and the structure of reinsurance
arrangements. By refusing, grant a meaningful
opportunity to comment on Notice 2016-66, the IRS has
essentially disregarded the insurance industry’s robust
regulatory standards.
SUMMARY OF ARGUMENT
The APA requires an agency to allow for a
meaningful opportunity to comment on the proposed
rule through the submission of written data, views, or
arguments. See 5 U.S.C. § 553(c). Further, this Court
has held that an agency is obligated to respond to
significant comments. See Perez v. Mortg. Bankers
Ass’n, 575 U.S. 92, 135 S. Ct. 1199, 1203 (2015).
However, the Issuance of Notice 2016-66 by the IRS did

6
not comply with the APA or other congressionally
mandated requirements, such as the Congressional
Review Act, the Regulatory Flexibility Act, and the
Paperwork Reduction Act. Such a result is particularly
concerning to the Amici, as this Court has made clear
that tax rules are subject to the same types of review as
other administrative regulations. See, e.g., Mayo
Found. for Med. Educ. & Research v. United States, 562
U.S. 44 (2011).
Had the IRS followed the APA, the concerns of the
Amici regarding the impact of Notice 2016-66 would
have been addressed. Since the IRS failed to follow the
APA, the Amici ask this Court to consider the written
data, views and arguments of the Amici that Notice
2016-66: 1) imposes a heavy burden on the public and
provided little or no additional benefit to the IRS, 2)
causes ongoing harm to the captive insurance industry,
3) violates the Taxpayer Bill of Rights, and 4) preempts
laws enacted by States for the purpose of regulating
the business of insurance.
Finally, although the Anti-Injunction Act prohibits
suits “for the purpose of restraining the assessment or
collection of any tax,” 26 U.S.C. § 7421(a), this Court
recently explained that the terms “assessment” and
“collection” do not extend to mere reporting
requirements. Direct Mktg. Ass’n v. Brohl, 575 U.S. 1,
8 (2015). The Amici seek clarification from this Court
that the Anti-Injunction Act does not prevent preenforcement challenges to tax rules not involving the
assessment or collection of taxes.

7
ARGUMENT
I.

Notice 2016-66 imposes a heavy burden on
the public with little or no additional
benefit to the IRS.

The IRS claims that Notice 2016-66 is necessary to
identify which Internal Revenue Code Section 831(b)
(“Section 831(b)”) arrangements should be identified
specifically as a tax avoidance transaction. In reality,
however, Notice 2016-66 appears to be designed to
burden the industry and thereby diminish its size and
scope. Notice 2016-66 requires essentially all captive
insurers making the Section 831(b) election, their
owners, the insured operating entity(ies) and its
owners, and any reinsurer, to submit IRS Form 8886,
Reportable Transaction Disclosure Statement. In
addition, so-called “material advisors,” like the
Petitioner, must file Form 8918, Material Advisor
Disclosure Statement. Although blank copies of Form
8886 are a mere two pages in length, the completed
form can be extremely long and complicated. In fact, by
the IRS’ own estimate, Form 8886 takes more than
twenty-one hours, i.e., over half of a standard
workweek, to complete. See Internal Revenue Service,
Instructions for Form 8886, at 7, available at
https://www.irs.gov/pub/irs-pdf/i8886.pdf. For some
businesses, including many of the Amici state
organization’s members, this presents a very heavy
new paperwork expansion. If each of the estimated
1,000 captive insurance company members of the Amici
spent 21.5 hours preparing Form 8886, they would
collectively spend over 43,000 hours per year complying
with Notice 2016-66. That total does not include the

8
Form 8918 to be prepared and submitted by advisors,
such as captive managers, CPAs and lawyers, on whom
the burden is potentially prohibitive. At the IRS’
estimated rate, an advisor who provides material
advice to only 52 captive insurance companies would
spend approximately six months each year preparing
the paperwork associated with Notice 2016-66. For
example, SIIA surveyed approximately 2,300 of its
members and found that they had filed over 15,000
forms at a collective cost of $22,186,800, to comply with
Notice 2016-66. See Once Again SIIA Stands Up For
Small Captives And Small Business, available at
https://www.captivatingthinking.com/once-again-siiastands-up-for-small-captives-and-small-business/.
In contrast with this onerous burden, the actual
benefits of Notice 2016-66 to the IRS are likely to be
minimal. First, the IRS does not appear to have either
the staff or the resources necessary to read the
mountains of paperwork created by Notice 2016-66, let
alone analyze the information on these forms or
translate it into concrete guidelines about whether a
transaction is a prohibited or abusive tax shelter. See
Dave Du Val, Beware the I.R.S.’s Speeded-Up Audit,
NY Times (Apr. 29, 2015), available at https://www.nyti
mes. com/2015/04/30/opinion/beware-the-irss-speededup-audit.html. Second, the Amici and the captive
industry are aware of an extensive series of audits that
the IRS is conducting and has conducted over the last
several years. There are more than 500 docketed
captive insurance cases in Tax Court involving Section
831(b). See Internal Revenue Service, Abusive tax
shelters, trusts, conservation easements make IRS’
2019 “Dirty Dozen” list of tax scams to avoid (March.

9
19, 2019), available at https://www.irs.gov/newsroom/
abusive-tax-shelters-trusts-conservation-easementsmake-irs-2019-dirty-dozen-list-of-tax-scams-to-avoid. It
is also estimated that there are or soon will be several
thousand captive insurance arrangements under audit
by the IRS. See IRS update on “micro-captive insurance
transactions”, available at https://home.kpmg/
us/en/home/insights/2020/01/tnf-irs-update-on-microcaptive-insurance-transactions.html. Further, at the
end of 2018, it was estimated that there were
approximately 3,123 active captive insurance
companies and 1,865 active cells formed in key U.S.
jurisdictions, and approximately 6,647 active captive
insurance companies and active 3,223 cells formed in
key jurisdictions worldwide. See SRS Charts the Total
Number of Active Captives for 2018, available at
https://www.captive.com/news/2019/02/25/srs-chartsthe-total-number-of-active-captives-for-2018. This
means that there are approximately 5,000 active
captive risk bearing entities (captive insurance
companies plus cells) formed in key U.S. jurisdictions,
and approximately 10,000 active risk bearing entities,
not all of which make the Section 831(b) election,
formed in key jurisdictions worldwide as of 2018, the
most recent year for which data is currently available.
See Id. Assuming, on the low end, that the several
thousand captive insurance companies currently or
soon to be under audit is approximately 2,000, the IRS
is auditing an estimated number of captive insurance
arrangements equivalent to 40% of the active captive
risk bearing entities formed in key U.S. domiciles, or
20% of the active captive risk bearing entities formed
in key worldwide jurisdictions.

10
Additionally, on January 31, 2020, the IRS
Commissioner stated that the IRS will “vigorously
pursue those involved in these and other similar
abusive transactions going forward. . . Enforcement
activity in this area is being significantly increased. To
that end, the IRS is deploying additional resources,
which includes setting up 12 new examination
teams . . . that will be working to address these abusive
transactions and open additional exams.” See IRS takes
next step on abusive micro-captive transactions; nearly
80 percent accept settlement, 12 new audit teams
established, available at https://www.irs.gov/newsroom/
irs-takes-next-step-on-abusive-micro-captivetransactions-nearly-80-percent-accept-settlement-12new-audit-teams-established.
These audits produce information on Section 831(b)
insurers at a painstaking level of detail. See Appendix
(redacted copy of an IRS Information Document
Request form). The level of information required in
these audit request forms produces a far more detailed
and intricate level of information than must be
provided on the Form 8886. These audits ultimately led
to three decisions in the United States Tax Court that
decided against the taxpayer.3 Simply put, if the IRS
has not learned sufficient information to identify an
abusive transaction from its widespread audits of a
large percentage of the active captive insurance
companies and cells formed worldwide and Tax Court

3

See Avrahami v. Commissioner, 149 T.C. 7 (T.C. Aug. 21, 2017),
Reserve Mechanical Corp. v. Commissioner, T.C. Memo. 2018-86
(T.C. June 18, 2018), and Syzygy Insurance Co., Inc., et. al. v.
Commissioner, T.C. Memo. 2019-34 (April 10, 2019).

11
litigation, Notice 2016-66 will not make any material
difference in its regulatory efforts.
In light of the extreme burden on the public and the
minimal benefit to the IRS, the Amici believe that the
actual purpose of Notice 2016-66 is not information
gathering, but rather to deter taxpayers from
participating in a lawful and beneficial industry. To
further bolster this argument, the Amici would point to
the timing of the Notice 2016-66 release. On December
18, 2015, the Protecting Americans from Tax Hikes Act
(the “PATH Act”) was enacted.4 The Path Act included
revisions to Section 831(b) to prohibit the use of captive
insurance companies as estate planning tools by adding
certain ownership diversification requirements. The
Path Act also included revisions to Section 831(b) to
increase the premium threshold to qualify for the
Section 831(b) deduction from $1,200,000 to
$2,200,000, with annual inflation adjustments. These
new provisions went into effect for tax years beginning
after December 31, 2016. In the wake of this expansion
of the Section 831(b) premium threshold, the IRS
response was to issue Notice 2016-66 on November 1,
2016, in an attempt to discourage captive insurance
companies from taking advantage of the then soon to
be effective newly congressionally authorized expanded
deduction.

4

Joint Committee on Taxation, Technical Explanation of the
Revenue Provisions of the Protecting Americans from Tax Hikes Act
of 2015, House Amendment #2 to the Senate Amendment to H.R.
2029 (Rules Committee Print 114-40), (JCX-144-15), December 17,
2015 (hereinafter, “PATH Act”).

12
Because the IRS did not allow a meaningful
opportunity to comment on Notice 2016-66 about how
the Notice produces far less information than an audit,
while discouraging captive insurance companies from
utilizing a valid tax deduction, the Amici respectfully
urge this Court to prevent the IRS from engaging in
this inequitable use of its regulatory powers by
declaring Notice 2016-66 invalid.
II.

Notice 2016-66 causes ongoing irreparable
harm to the captive insurance industry and
its stakeholders.

Since taking effect, IRS Notice 2016-66 has inflicted
immediate and irreparable harm on the captive
insurance industry. Apart from the substantial burden
of compliance discussed above, Notice 2016-66
threatens to stigmatize legitimate businesses and
intimidate citizens from engaging in activity that
Congress has expressly declared lawful, most recently
in the PATH Act of 2015 and Consolidated
Appropriations Act of 2018, Pub. L. 115–141. See
Protecting Americans from Tax Hikes (“PATH”) Act of
2015, 129 Stat. 3106-08.
First, Notice 2016-66 threatens to stigmatize the
Amici, their members, and those associated with the
captive insurance industry, such as accountants,
actuaries, attorneys and captive managers. The IRS
has long cast aspersions on Section 831(b) captive
insurance by including the industry on its annual
“Dirty Dozen” list of supposed “tax scams.” See Internal
Revenue Service, Abusive tax shelters, trusts,
conservation easements make IRS’ 2019 “Dirty Dozen”
list of tax scams to avoid (March. 19, 2019), available

13
at https://www.irs.gov/newsroom/abusive-tax-shelterstrusts-conservation-easements-make-irs-2019-dirtydozen-list-of-tax-scams-to-avoid. Presumably, Congress
would not have authorized Section 831(b) if it thought
that all or most uses of that section amount to a tax
scam.
The IRS has explained that the problem lies with
“abusive” uses of Section 831(b), under which insureds
pay inappropriately high premiums or receive
insurance for harms that have little or no risk of
materializing. See Id. Under Notice 2016-66, however,
the IRS has declared that essentially every captive
making the Section 831(b) election, including
legitimate non-abusive captive insurance companies,
are subject to the reporting requirement and present
“the potential for tax avoidance or evasion.” Id. In other
words, Notice 2016-66 casts a cloud of suspicion over
every entity insured by a Section 831(b) captive
insurance company, even when it is clear that the
captive provides appropriate insurance at actuariallyjustified premiums. Because Notice 2016-66 implicates
legitimate captive insurance companies within its
grasp, the notice continues to provide a clouded view of
what the IRS would consider to be legitimate and
improper structures. Because of this stigma, Notice
2016-66 has intimidated and will continue to
intimidate taxpayers to forego lawful activity out of
fear of reprisals from the IRS.
Collectively, the stigma and fear engendered by
Notice 2016-66, along with the substantial costs of
compliance, threaten to stifle the captive insurance
industry in many states with captive insurance laws.

14
The Amici estimate that a significant percentage of the
stand-alone captive insurers licensed by the states and
ancillary jurisdictions qualify to file under Section
831(b). Consequently, if the IRS succeeds in its
apparent goal of discouraging the use of Section 831(b),
a significant percentage of the captive insurance
industry would be threatened. This would not only be
against the intent of the Amici and their members; it
would also be against the interest of Congress, which
passed Section 831(b) and reaffirmed its use in the
PATH Act and the Consolidated Appropriations Act of
2018.
It appears that the IRS’s actions have started to
have their intended effect, as reports indicate that
Notice 2016-66 has already begun to negatively affect
the captive insurance market in the U.S. Many of the
Amici’s members report that their clients have
abandoned or plan to abandon existing captive insurers
and/or forego the creation of new ones since Notice
2016-66 took effect. Other members of the Amici have
ceased formation of any captive insurance companies
under Section 831(b) because of the heightened
scrutiny and regulatory burden imposed by the Notice.
The Amici are also aware of multiple audits of captive
insurers or owners, each of which cost approximately
$250,000 to defend. In light of these risks and the
clouded view of what the IRS would consider to be a
legitimate Section 831(b) captive insurance company,
many insurance professionals can no longer promote
the formation of Section 83l(b) captive insurance
companies in good faith unless their clients are willing
to embrace the substantial costs of complying with
Notice 2016-66 and the risk associated with an audit.

15
For example, in 2018, captive insurance companies
making the Section 831(b) tax election remained under
the microscope, resulting in a continued reduction in
their numbers and a significant drop in formation
activity. See SRS Charts the Total Number of Active
Captives for 2018, available at https://www.captive.com
/news/2019/02/25/srs-charts-the-total-number-of-activecaptives-for-2018.
Because the IRS did not allow a meaningful
opportunity to comment on Notice 2016-66 about how
the Notice stigmatizes and intimidates every captive
insurance company making the Section 831(b) election,
both abusive and non-abusive, the Amici respectfully
urge this Court to prevent the IRS from engaging in
this inequitable use of its regulatory powers by
declaring Notice 2016-66 invalid.
III.

Notice 2016-66 violates the Taxpayer Bill of
Rights.

The Amici believe that Notice 2016-66 violates
several provisions of the recently promulgated
Taxpayer Bill of Rights (2014). Taxpayer Bill of Rights
#1 is the Right to Be Informed and states that
“taxpayers have the right to know what they need to do
to comply with tax laws. They are entitled to clear
explanations of the law and IRS procedures in all tax
forms, instructions, publications, notices, and
correspondence.” See Taxpayer Bill of Rights: #1, The
Right to Be Informed, available at
https://www.irs.gov/newsroom/taxpayer-bill-of-rights-1the-right-to-be-informed-0. Requests have been made
for guidance from the IRS regarding the amendments
to the Section 831(b) under the PATH Act. See SIIA

16
calls for guidance on which PATH to take, available at
http://www.captiveinsurancetimes.com/captiveinsura
ncenews/article.php?article_id=4896. No such guidance
has been issued. Instead, the IRS issued Notice 201666 stating they did not have enough information “to
define the characteristics that distinguish the tax
avoidance transactions from other Section 831(b)
related-party transactions.” See Notice 2016-66,
available at https://www.irs.gov/pub/irs-drop/n-1666.pdf. While continuing to gather this information, the
IRS Commissioner vowed to “vigorously pursue those
involved in these and other similar abusive
transactions going forward.” See Internal Revenue
Service, Abusive tax shelters, trusts, conservation
easements make IRS’ 2019 “Dirty Dozen” list of tax
scams to avoid (March. 19, 2019), available at
https://www.irs.gov/newsroom/abusive-tax-shelterstrusts-conservation-easements-make-irs-2019-dirtydozen-list-of-tax-scams-to-avoid. Additionally, as
discussed above, the IRS views all captive insurance
companies making the Section 831(b) election as
having the “potential for tax avoidance or evasion.” See
Id. This dichotomy of giving no guidance on how a
captive insurance company may comply with Section
831(b), while subjecting every captive making the
Section 831(b) election to heightened scrutiny and
admitting the IRS does not have enough information,
is a clear violation of the Taxpayer Bill of Rights #1. If
the IRS needs more information to distinguish the tax
avoidance transactions from other Section 831(b)
related-party transactions, how can a taxpayer know
what it needs to do to comply with tax laws in the face
of an IRS onslaught.

17
Taxpayer Bill of Rights #4, the Right to Challenge
the IRS’s Position and to Be Heard, states that
“taxpayers have the right to raise objections and
provide additional documentation in response to formal
IRS actions or proposed actions, to expect that the IRS
would consider their timely objections and
documentations promptly and fairly, and to receive a
response if the IRS does not agree with their position.”
See Taxpayer Bill of Rights: #4, The Right to Challenge
the IRS’s Position and Be Heard, available at
https://www.irs.gov/newsroom/taxpayer-bill-of-rights-4the-right-to-challenge-the-irss-position-and-be-heard-1.
Clearly, Notice 2016-66, with its timing and intended
effect of stigmatizing an industry, violates this
Taxpayer Right. In fact, Taxpayer Bill of Rights #4
mimics, in many ways, the APA and further reinforces
that when the IRS wants to impose a particularly
severe and onerous disclosure burden, such as is
associated with declaring something a transaction of
interest under § 6011, that they do so in a manner that
gives the taxpayers a chance to raise objections.
Taxpayers have a right to have the IRS consider their
timely objections and documentation properly and
fairly.
Because the IRS did not allow a meaningful
opportunity to comment on Notice 2016-66 about how
the Notice violates the Taxpayer Bill of Rights #1 and
#4, the Amici respectfully urge this Court to prevent
the IRS from engaging in this inequitable use of its
regulatory powers by declaring Notice 2016-66 invalid.

18
IV.

Notice 2016-66 invalidates, impairs, and
supersedes laws enacted by States for the
purpose of regulating the business of
insurance, or which imposes a fee or tax
upon such business.

In 1945, Congress passed the McCarran-Ferguson
Act, which provides that the primary responsibility for
the regulation of insurance lies with the States, rather
than the federal government. See McCarran-Ferguson
Act, 59 Stat 33-34 (1945) (codified as amended at 15
U.S.C. §§ 1011-1015). Over the past seventy years,
Congress has repeatedly reaffirmed that principle. See,
e.g., 15 U.S.C. § 1011 (“Congress hereby declares that
the continued regulation and taxation by the several
States of the business of insurance is in the public
interest.”); id. § 6701(b) (providing that no person may
engage in the “business of insurance” unless licensed
“in accordance with the relevant State insurance law”);
Legal Principles Defining the Scope of the Federal
Antitrust Exemption for Insurance, B-304474, March
4, 2005, available at https://www.gao.gov/decisions/oth
er/304474.htm (“Under current federal law, the
regulation of insurance is primarily the responsibility
of the States. This arrangement results, in part, from
Congress’s decision, in the McCarran-Ferguson Act, 15
U.S.C. 1011 et seq., to exempt certain insurancerelated activities from the federal antitrust laws.”)
Further, the McCarran-Ferguson Act states that
“[n]o Act of Congress shall be construed to invalidate,
impair, or supersede any law enacted by any State for
the purpose of regulating the business of insurance, or
which imposes a fee or tax upon such business, unless

19
such Act specifically relates to the business of
insurance.” 15 U.S. Code § 1012(b). In Humana, Inc. v.
Forsyth, the Court determined that “invalidate, impair,
or supersede,” as used in the McCarran-Ferguson Act,
means to preempt a state law. See Humana, Inc. v.
Forsyth, 525 U.S. 229, pp. 11-23 (1999). Additionally, in
Saunders v. Farmers Ins. Exchange, the 8th Circuit
Court of Appeals held that the McCarran-Ferguson Act
barred the application Fair Housing Act, 42 U.S.C.
§§ 3601 et seq., and 42 U.S.C. §§ 1981 and 1982. See
Saunders v. Farmers Ins. Exchange, 537 F.3d 961, (8th
Cir. 2008). In the case, the plaintiffs alleged the
defendant insurance company violated the Fair
Housing Act by “charg[ing] higher premium rates for
the same type of homeowners coverage to homeowners
in the Community . . . than [they] charged homeowners
in white communities. See Id. However, the court in
Saunders v. Farmers Ins. Exchange held that “state
statutes prescribing what rates may be charged are
essential to the core of Missouri’s regulation of the
business of insurance.” See Id. at 968. In its decision,
the court stated that “in Missouri, the Director of
Insurance has been delegated the essentially legislative
task of rate-making by reviewing Insurer risk
classifications and pricing differentials. If a federal
court may assess damages based upon what a nondiscriminatory rate would have been, and then
prescribe the future rate in an injunctive decree, ‘[a]
more complete overlap with the state [agencys] pricing
decisions is impossible to conceive.’” See Id., citing
Dehoyos v. Allstate Corp., 345 F.3d 290, 302 (5th Cir.
2003) (Jones, J., dissenting).

20
In light of this principle and the long and successful
history of state-level regulation, Notice 2016-66
represents a particularly troubling abuse of federal
regulatory muscle despite effective safeguards that
ensure that captive insurers operate as legitimate and
beneficial insurance entities.
In the various U.S. captive jurisdictions, the
insurance regulators play a very active role in
regulating the captive insurance industry and
preventing the types of abuses that the IRS apparently
hopes to deter through Notice 2016-66. For example, in
order to gain licensure in any U.S. captive jurisdiction,
every captive insurer must submit an application to the
jurisdiction’s insurance regulator. Each jurisdiction’s
insurance regulator closely reviews and monitors each
captive insurance company to determine whether it is
properly funded, has the necessary liquidity, insures
only appropriate risks, and prices its premiums
correctly. At least annually, each captive insurer must
submit a financial statement, an audit report prepared
by an independent CPA, and an actuarial opinion
certified by an independent actuary to its insurance
regulator.
With Notice 2016-66, the IRS is seeking to supplant
its own judgment about what constitutes an acceptable
captive insurance transaction. Despite the regulation
of captive insurance companies by the U.S. captive
jurisdictions through numerous insurance industry
experts and professionals, the IRS still believes that
with regard to captive insurance companies making the
Section 831(b) election that “[t]he manner in which the
contracts are interpreted, administered, and applied is

21
inconsistent with arm’s length transactions and sound
business practices.” See IRS Notice 2016-66. This type
of broad, blanket aspersion about captive insurance
companies making the Section 831(b) election
completely preempts the judgment of numerous
insurance industry experts and professionals in the U.S
captive jurisdictions when licensing and regulating
captive insurance companies in violation of the
McCarran-Ferguson Act. And like in Saunders v.
Farmers Ins. Exchange, Notice 2016-66 represents a
complete overlap with the insurance regulator’s
regulatory decisions.
Interestingly, the IRS avoided this issue in Notice
2015-74, while recognizing the value of regulators. See
Notice 2015-74, available at https://www.irs.gov/pub/irs
-drop/n-15-74.pdf. In Notice 2015-74, the IRS stated
that certain exotic financial arrangements designed to
convert short-term capital gain and/or ordinary income
into long-term capital gain through contractual
manipulations (“basket contracts”) were “transactions
of interest.” See Id. However, Notice 2015-74 excluded
basket contracts that are “subject to regulations by a
comparable regulator”. See Id.
Notice 2010-66
essentially disregards and preempts the role of the
state Departments of Insurance as regulators of the
captive industry, but Notice 2015-74 allows for a full
pass for something that is otherwise a “transaction of
interest” if it is subject to regulation.
Notice 2016-66 also has preempted U.S. captive
jurisdictions’ premium tax laws in violation of
McCarran-Ferguson Act. As discussed above, captive
insurance companies making the Section 831(b) tax

22
election remain under the microscope resulting in a
continued reduction in their numbers and a significant
drop in formation activity. See SRS Charts the Total
Number of Active Captives for 2018, available at
https://www.captive.com/news/2019/02/25/srs-chartsthe-total-number-of-active-captives-for-2018.
That
drop in formation activity of captive insurance
companies making the Section 831(b) election is
directly attributable to Notice 2016-66. In this case,
Notice 2016-66 has directly prevented U.S. captive
jurisdictions from collecting premium tax from captive
insurance companies seeking to make the Section
831(b) election by intimidating taxpayers from forming
captive insurance companies or causing those existing
captive insurance companies that had made the Section
831(b) election to shut down.
Because the IRS did not allow a meaningful
opportunity to comment on Notice 2016-66 about how
the Notice violates the McCarran-Ferguson Act, the
Amici respectfully urge this Court to prevent the IRS
from engaging in this inequitable use of its regulatory
powers by declaring Notice 2016-66 invalid.
V.

Information gathering is a phase of tax
administration procedure that occurs
before the assessment of a tax and the AntiInjunction Act should not apply.

The Anti-Injunction Act provides that “no suit for
the purpose of restraining the assessment or collection
of any tax shall be maintained in any court by any
person, whether or not such person is the person
against whom such tax was assessed.” 26 U.S.C.
§ 7421(a). This statute “protects the Government’s

23
ability to collect a consistent stream of revenue, by
barring litigation to enjoin or otherwise obstruct the
collection of taxes. Because of the Anti-Injunction Act,
taxes can ordinarily be challenged only after they are
paid, by suing for a refund.” National Federation of
Independent Business v. Sebelius, 567 U.S. 519, 543
(2012) citing Enochs v. Williams Packing & Nav. Co.,
370 U.S. 1, 7–8 (1962).
The present challenge to Notice 2016-66 by the
Petitioner seeks to restrain the requirement to report
information to the Internal Revenue Service before a
taxpayer or material advisor has failed to comply with
Notice 2016-66 and become subject to any civil or
criminal penalties. The District Court and the Sixth
Circuit contend that the Internal Revenue Code treats
the penalty for not complying with Notice 2016-66 as a
tax, and that the Anti-Injunction Act therefore bars
this suit. See CIC Services, LLC v. Internal Revenue
Service, 2017 WL 5015510 (E.D. Tennessee), CIC
Services, LLC v. Internal Revenue Service, 925 F.3d 247
(6th Cir. 2019), and CIC Services, LLC v. IRS, 936 F.3d
501 (6th Cir. 2019)
The Amici believe that the text of the pertinent
statutes suggests otherwise. The Anti-Injunction Act
applies to suits “for the purpose of restraining the
assessment or collection of any tax.” § 7421(a)
(emphasis added). In this case, CIC Services, LLC does
not seek to enjoin the enforcement of a tax, but rather,
it seeks to enjoin the IRS from information gathering
pursuant to the requirements of Sections 6111 and
6112 of the Internal Revenue Code. Sections 6111 and
6112 cannot rightly be described as either a tax or a

24
penalty, but can be described as statutes requiring the
gathering of information.
Congress can, of course, describe something as a
penalty but direct that it nonetheless be treated as a
tax for purposes of the Anti-Injunction Act. See
National Federation of Independent Business v.
Sebelius, 567 U.S. 519, 544 (2012). For example, 26
U.S.C. § 6671(a) provides that “any reference in this
title to ‘tax’ imposed by this title shall be deemed also
to refer to the penalties and liabilities provided by”
subchapter 68B of the Internal Revenue Code. See Id.
“Penalties in subchapter 68B are thus treated as taxes
under Title 26, which includes the Anti-Injunction Act”.
See Id. at 544-545. The requirement to gather
information found in Sections 6111 and 6112, however,
is not in subchapter 68B of the Code. Nor does any
other provision state that references to taxes in Title 26
shall also be deemed to apply to the requirement to
gather information pursuant to §§ 6111 and 6112. As
the Supreme Court explained in Direct Marketing,
“information gathering” (such as the requirement to
provide information pursuant to Notice 2016-66) is “a
phase of tax administration procedure that occurs
before assessment… or collection”. See Direct Mktg.
Ass’n v. Brohl, 575 U.S. 1, 135 S. Ct. 1124, 1129-31
(2015).
The Amici urge the Court to grant certiorari in this
case and to allow the case to move forward on the basis
Judge Nalbandian stated in his dissent in CIC Services,
LLC v. Internal Revenue Service, 925 F.3d 247 (6th Cir.
2019). “[A] suit to enjoin the enforcement of a reporting
requirement is not a ‘suit for the purpose of restraining

25
the assessment or collection of any tax,’ 26 U.S.C.
§7421(a), . . . because the tax does not result from the
reporting requirement per se”. CIC Services, LLC v.
Internal Revenue Service, 925 F.3d 247, 259-261 (6th
Cir. 2019)(Nalbandian, J., dissenting). “The only way
for the IRS to assess and collect the tax is for a party to
violate the [reporting] requirement. So enjoining the
[reporting] requirement only stops the assessment and
collection of the tax in the sense that a party cannot
first violate the [reporting] requirement and then
become liable for the tax.” See Id. at 261. To add to this
point, the Amici are unaware of any captive insurance
company or material advisor being penalized for failing
to comply with Notice 2016-66. As such, there are
currently no known penalties owing to the IRS that
could be enjoined.
CONCLUSION
For the foregoing reasons, the Amici urge the Court
to review closely the validity of Notice 2016-66. The
Amici filing this brief, while offering no opinion on any
other particular facts or structure of any insurance
program at issue or otherwise, believe the Court should
grant certiorari in this case because the IRS did not
allow a meaningful opportunity to comment on Notice
2016-66 and failed to respond in any way to the
following significant industry concerns:
(1)
Notice 2016-66 imposes a heavy burden
on the public with little or no additional benefit
to the Internal Revenue Service (“IRS”);

26
(2)
Notice 2016-66 causes ongoing irreparable
harm to the captive insurance industry and its
stakeholders;
(3)
Notice 2016-66 violates the Taxpayer Bill
of Rights;
(4)
Notice 2016-66 invalidates, impairs, and
supersedes laws enacted by states for the
purpose of regulating the business of insurance,
or which impose a fee or tax upon such business;
and
(5)
Information gathering is phase of tax
administration procedure that occurs before the
assessment of a tax, and the Anti-Injunction Act
should not apply.
Respectfully submitted,
WILLIAM YOUNG WEBB
Of Counsel
WEBB & MORTON, PLLC
910 N. Sandhills
Boulevard
Aberdeen, NC 28315
(910) 944-9555

K. SCOTT HAMILTON
Counsel of Record
KEVIN DOHERTY
TONY GREER
DICKINSON WRIGHT PLLC
500 Woodward Avenue
Suite 4000
Detroit, MI 48226
(313) 223-3500
KHamilton@dickinson-wright.com

Counsel for Amici Curiae
Dated: February 24, 2020

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix

Audit Document Request . . . . . . . App. 1

App. 1

APPENDIX

Description of documents requested
Tax Period(s):

201112

*Please be advised that the 2012 tax return has been
picked up for exam*
Provide the·following documentation for tax years 2011
and 2012.
Part I – Instructions and Definitions
Instructions
In responding to this Information Document Request
(“IDR”), all requests for documents should be construed
expansively rather than narrowly. All documents
produced should include all attachments, exhibits,
addendums, and appendices.
If XXXXXXXX does not produce a requested document,
it should state the efforts made to locate the requested
document. In addition, XXXXXXXX must state whether

App. 2
the requested document ever existed, existed but was
destroyed, or existed but was misplaced.
Please provide all hard copy documents and
Electronically Stored Information (ESI) formatted for
Concordance/Opticon. All documents originating from
hard copy should be produced as TIFF or JPG named
and branded with the Bates number. All ESI sourced
documents (e.g. Email, Microsoft Word, Excel,
PowerPoint, etc.) should be provided as both Bates
branded TIFF or JPG and in “native” format named
according to Bates number. Provide E-mails or other
documents with embedded attachments linked in a way
that makes it clear that the documents are related.
Documents should be de-duplicated and produced in
color where necessary, with custodian, source and other
information included as described in the attached
addendum. Please remove any password protection or
encryption from the individual files, or provide any
passwords, encryption keys or certificates necessary to
view the files.
These documents may be produced in read-only form on
CD, DVD, or hard drive. To ensure readability of any
requested document in electronic format, provide the
PDF or TIFF files with an image resolution of at least
300 dots per inch (dpi). To the extent that any
electronic indexes or other listings relating to the
requested documents are created in preparation for
submitting them to the Internal Revenue Service,
please provide that information with your response to
assist in organizing and reviewing the documents.
The attached
guidelines.

addendum

provides

additional

App. 3
Definitions
The following definitions apply to this IDR:
a. For the purpose of this request, the words
“documents,” “records” or “data” refer to any
materials of any kind that are written, printed,
typed, reproduced graphically, visually, aurally,
electronically, or by any other means, including
but not limited to:
• Contracts, agreements, plans, papers,
summaries, opinions, reports, commentaries,
communications, correspondence,
memoranda, minutes, notes, comments,
messages, studies, graphs, diagrams,
photographs, charts, projections, tabulations,
analyses, questionnaires and responses, work
papers, data sheets, statistical or
informational accumulations, computer
databases, computer disks and formats, data
processing cards or worksheets, telexes,
telegrams, teletypes, cables, facsimiles,
instant messages, voice mail, and similar and
related documents, data, and materials;
• Video and/or audio tapes, cassettes, films,
microfilm, video files, sound files, and all
other information stored or processed by
means of data processing equipment and
capable of being retrieved in electronic,
printed, or graphic form;
• Computer stored and generated documents
or data, including but not limited to,
electronic mail (commonly referred to as “e-

App. 4
mail”) and attachments, word processing
documents, and spreadsheets;
• Computer database information (including
metadata) from document management
programs or systems that track or control
electronic documents described above.
b. XXXXXX includes any current or former
employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
c. XXXXXX Insurance Company, Ltd. includes any
current or former employee, officer, principal,
director, shareholder, partner, member,
consultant, manager, associate, staff employee,
independent contractor, agent, attorney, or other
representative.
d. XXXX means XXXXXX Law Offices XXXXXX
and XXXXXX includes any current or former
employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
e. “Fronting Carrier #1” means XXXXXX XXXXXX
a company licensed in XXXXXX “Fronting
Carrier #1” includes any trust in which XXXXXX
XXXXXX is the grantor or beneficiary, and any
current or former employee, officer, principal,
director, shareholder, partner, member,

App. 5
consultant, manager, associate, staff employee,
independent contractor, agent, attorney, or other
representative.
f. “Fronting Carrier #2” refers to XXXXXX
XXXXXX a company licensed in the state of
XXXXXX “Fronting Carrier 2” also includes any
trust in which XXXXXX XXXXXX is the settlor,
grantor, or beneficiary, and any current or
former employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
g. “Captive Insurance Program” means the
program pursuant to which (1) Fronting Carrier
#1 or Fronting Carrier #2 (“Insurers) issued
terrorism insurance to XXXXXX and other
insured parties, each of which had one or more
related captive insurance companies; and
(2) insurers ceded all risks of said terrorism
insurance to XXXXXX XXXXXX and captive
insurance companies related to other insured
parties. The Captive Insurance Program also
includes transactions in which XXXXXX
XXXXXX issued insurance policies directly to
XXXXXX
h. “Captive” means an insurance company or
captive insurance company to whom risks were
ceded by Fronting Carrier #1 or Fronting Carrier
#2 under the Captive Insurance Program and
who directly insured a related Insured
Participant.

App. 6
i. “Insured Participant” means a party that
purchased one or more terrorism insurance
policies from Fronting Carrier #1 and/or
Fronting Carrier #2 under the Captive
Insurance Program. To the extent that Insured
Participant has affiliates, subsidiaries,
brother/sister companies, or other similar
entities that were also parties to Insured
Participant’s insurance policies described above,
such affiliates, subsidiaries, brother/sister
companies, or other similar entities are also
included in the term “Insured Participant.”
“Insured Participant” includes any current or
former employee, officer, principal, director,
shareholder, partner, member, consultant,
manager, associate, staff employee, independent
contractor, agent, attorney, or other
representative.
j. The term “person” has the meaning as defined in
section 7701(a)(1) of the Internal Revenue Code
but also includes all of the person’s
representatives.
k. The term “related” person or entity includes the
persons specified in sections 267(b), 267(c), 318
and 707(b) of the Internal Revenue Code.
l. The term “identify” when used in connection
with a person means provide the name, title,
TIN (as defined in I.R.C. §7701(a)(41)), and
current or last known business and residential
addresses and telephone numbers.

App. 7
m. The term “risk management” means all
activities relating to identifying, calculating,
mitigating, reducing, or planning for potential
financial, business, or other risk or risk
exposure.
n. Part II - Documents/Information to be
produced:
1.

Produce all insurance policies and contracts for
insurance that XXXXXX purchased from
XXXXXXXXXX Fronting Carrier #1 and/or
Fronting Carrier #2 for any insurance period(s).
a. For each such insurance policy or contract
specify the amounts each party insured
under the policy paid toward the premium
cost.
b. For each such insurance policy or contract
produce documentation of XXXXXX
payments of premiums, including checks or
records of wire transfers, to XXXXXXXXXXX
Fronting Carrier #1, and/or Fronting Carrier
#2.

2.

Produce all insurance binders relating to
insurance that XXXXXX purchased from
XXXXXXXXXXXX Fronting Carrier #1 or
Fronting Carrier #2 for any insurance period(s).

3.

Produce all agreements between or among
XXXXXX, XXXXXXXX, XXXX and/or Fronting
Carrier #1 or Fronting Carrier #2.

App. 8
4.

Produce all agreements between XXXXXX and
XXXX including, but not limited to, engagement
letters and contracts.

5.

Produce documentation of all payments
XXXXXX made to XXXX under the agreements
referenced in the preceding request, including
checks and records of wire transfers.

6.

Describe how XXXXXX first was introduced to or
learned about:
a. XXXX
b. Fronting Carrier #1;
c. Fronting Carrier #2; and
d. the Captive Insurance Program.

7.

If XXXXXX first learned about any of the above
entities or program from one or more persons,
identify each such person and provide the
following:
a. Describe the nature of XXXXXX relationship
with such person;
b. Describe the communications XXXXXX had
with such person regarding XXXXXXXXXXX
Fronting Carrier #1, Fronting Carrier #2,
and/or the Captive Insurance Program;
c. Provide all documents reflecting or related to
the communications referenced in the
preceding request, No. 7. b., above;

App. 9
d. State whether such person receives or
received compensation from XXXX Fronting
Carrier #1, and/or Fronting Carrier #2.
8.

Describe all documents that mentioned
XXXXXXXXXXXX, Fronting Carrier #1, and/or
Fronting Carrier #2 that XXXXXX was provided
or otherwise obtained before XXXXXX began
buying insurance from XXXXXXXX Fronting
Carrier #1 and/or Fronting Carrier#2, including,
but not limited to, program descriptions,
circulars, brochures, handouts, advertisements,
educational materials, marketing materials,
sample contracts, sample policies, data or
statistical compilations, graphs, and/or charts.
For each such document:
a. Provide the document;
b. Describe the circumstances under which
XXXXXXXX obtained the document;
c. Identify the person who provided the
document to XXXXXXXX
d. State when the document was provided to
XXXXXXXX

9.

Provide each insurance policy, including riders
and any other attachments, which provided
insurance coverage to XXXXXXXX that was
issued by a company other than XXXXXXXXXX
Fronting Carrier #1 or Fronting Carrier #2 for
any insurance period or periods that began on or
after January 1, 2007.

App. 10
10.

Provide the name and address of each insurance
broker with whom XXXXXXXX consulted or had
business dealings during the period from
January 1, 2007 through December 31, 2012.

11.

Describe XXXXXXXX risk management during
2007 and each subsequent year through
December 31, 2012.

12.

Provide all documents outlining or describing
any aspect of XXXXXXXX risk management
during 2007 and each subsequent year through
December 31, 2012.

13.

Identify each employee, contractor, and advisor
who contributed to XXXXXXXX risk
management during the period from January 1,
2007 through December 31, 2012, and for each
such individual, describe:
a. The individual’s relationship with
XXXXXXXX e.g., employee or contractor;
b. The individual’s role and functions related to
risk management for XXXXXXXX
c. The time frame during which the individual
fulfilled the specified risk management roles
and functions;
d. The approximate amount of time per month
the individual spent performing the risk
management roles and functions;
e. Provide all documents related to or reflecting
each individual’s contributions to XXXXXXX

App. 11
risk management during the above-stated
period.
14.

With regard to each insurance policy or contract
referenced in request No. 1, above, describe all
losses that occurred during the 10 years
preceding purchase of that policy that would
have been covered under the policy if it had been
effective on the date of loss. For each such loss:
a. State when the loss occurred;
b. Specify the total cost of the loss to
XXXXXXXX;
c. Identify any insurance policies that paid
claims filed by XXXXXXXX with respect to
such loss and state the amounts paid;
d. Specify the amount that the policy
XXXXXXXX later purchased under the
Captive Insurance Program would have paid
if the policy had been effective as of the date
of loss;
e. Provide all records related to each loss.

15.

Identify each individual who participated in
XXXXXXXX decision to enter the Captive
Insurance Program and/or to renew
participation in each year subsequent to the
initial year.

16.

Describe all steps taken by XXXXXXXX to
determine whether to enter the Captive
Insurance Program and whether to renew
participation in each year subsequent to the

App. 12
initial year, including, but not limited to
research, feasibility or other studies, cost-benefit
analyses, cash flow analyses, cost comparisons,
meetings, consultation and/or hiring of
actuaries, brokers, and other specialists and
experts, data gathering, and loss projections.
17.

Provide all documents reflecting or related to the
steps taken by XXXXXXXX to determine
whether to enter the Captive Insurance Program
and whether to renew participation in each year
subsequent to the initial year.

18.

Describe all steps taken by XXXXXXXX to
determine whether to purchase each policy or
contract referenced in request No. 1, above,
and/or how much to pay for each policy or
contract, including, but not limited to, research,
feasibility or other studies, cost-benefit analyses,
cost comparisons, meetings. consultation and/or
hiring of actuaries, brokers, and other specialists
and experts, data gathering, and loss
projections.

19.

Provide all documents reflecting or related to the
steps taken by XXXXXXXX to determine
whether to purchase each policy or contract
referenced in request No. 1, above, and/or how
much to pay for each policy or contract.

20.

Provide all documents reflecting communications
between or among XXXXXXXX employees,
owners, principals, contractors, and/or advisors
regarding whether to enter the Captive
Insurance Program, whether to renew

App. 13
participation each year, and/or whether to
purchase each insurance policy or contract
referenced in request No. 1, above.
21.

Describe all oral communications between
XXXXXXXX and XXXX Fronting Carrier #1
and/or Fronting Carrier #2 that preceded
XXXXXXXX entering the Captive Insurance
Program, including:
a. When the communications occurred;
b. the parties to the communications; and
c. The general subject
communications.

matter

of

the

22.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

23.

Describe all oral communication between
XXXXXXXX and XXXX Fronting Carrier #1
and/or Fronting Carrier #2 that preceded
XXXXXXXX renewing participation in the
Captive Insurance Program in each year
subsequent to the initial year, including:
a. When the communications occurred;
b. the parties to the communications; and
c. the general subject
communications.

matter

of

the

App. 14
24.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

25.

Produce all documents exchanged among
XXXXXX and XXXXXXXXXXXXX Fronting
Carrier #1 and/or Fronting Carrier#2 preceding
XXXXXXXX entering the Captive Insurance
Program or renewing participation in the
program in each subsequent year. Such
documents include, but are not limited to:
a. Correspondence and e-mails;
b. records;
c. computations;
d. spreadsheets;
e. forms;
f. illustrations; and
g. draft or sample policies or contracts.

26.

Provide all applications for insurance XXXXXX
submitted to Fronting Carrier #1, Fronting
Carrier #2, and/or XXXXXXXXXXXX for any
insurance period.

27.

Describe all oral communications between
XXXXXX and XXXX Fronting Carrier #1,
Fronting Carrier #2, and/or XXXXXXXXXXXX
that preceded the issuance of each insurance
policy referenced in request 1, above, including:

App. 15
a. When the communications occurred;
b. the parties to the communications; and
c. the general subject
communications.

matter

of

the

28.

Produce all documents related to or reflecting
the communications referenced in the preceding
request, including, but not limited to,
memoranda and notes of meetings or telephone
calls.

29.

Produce all documents exchanged among
XXXXXX and XXXX Fronting Carrier #1,
Fronting Carrier #2 and/or XXXXXXXXXXXX
preceding the issuance of each insurance policy
or contract referenced in request No. 1, above.
Such documents include, but are not limited to:
a. Correspondence;
b. records;
c. verification of loss history;
d. forms;
e. illustrations; and
f. draft or sample policies or contracts.

30.

Identify each person who played a role in
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies and/or contracts
referenced in request No. 1, above, and for each
person:

App. 16
a. State the person’s relationship with
XXXXXXXX such as employee or contractor;
b. Describe the person’s credentials and
experience pertinent to insurance,
reinsurance, underwriting, and law;
c. Describe specifically the person’s role with
respect to negotiating, reviewing, and/or
evaluating XXXXXXXX insurance policies;
d. State the time frame in which the person
provided assistance with respect to
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies;
e. Provide all documents related to the person’s
negotiating, reviewing, and/or evaluating
XXXXXXXX insurance policies.
31.

State when each of the policies or contracts
referenced in request No. 1, above, was issued
and provided to XXXXXXXX
a. Provide all documents related to the issuance
and providing of the policies or contracts
referenced in request No. 1, above, to
XXXXXXXX including, but not limited to,
cover letters, correspondence, and emails.

32.

Describe all costs paid by XXXXXXXX in
conjunction with formation and/or
administration of XXXXXXXXXXXX

33.

Provide documentation, including checks and
records of wire transfers, of all payments
referenced in the preceding request.

App. 17
34.

Provide all documents related to formation of
XXXXXXXXXXXX including, but not limited to,
correspondence, memoranda, meeting notes,
proposals, and applications.

35.

Provide all claims, claim forms, and supporting
documentation XXXXXX submitted under the
insurance policies or contracts referenced in
request No. 1, above.

36.

Provide all documents reflecting or related to
payments by Fronting Carrier #1, Fronting
Carrier #2, and/or XXXXXXXXXXXX to
XXXXXX for each claim filed under the
insurance policies or contracts referenced in
request No. 1, above.

37.

Describe the Captive Insurance Program’s claim
adjustment processes.

38.

Provide all documents reflecting or related to the
claims adjustment process for each claim
XXXXXXXX submitted under the insurance
policies or contracts referenced in request No. 1,
above, including, but not limited to,
correspondence, documents exchanged during
the claims adjustment process; notes and
memoranda; analyses; settlement documents;
and documents describing or outlining claims
adjustment procedures.

39.

Identify all individuals who participated on
behalf of XXXXXX, XXXX Fronting Carrier #1,
Fronting Carrier #2, and/or XXXXXXXXXXXX in
the claims adjustment procedures under the
Captive Insurance Program.

App. 18
40.

For the period from January 1, 2007 through the
present, identify all of XXXXXX current and
former owners and state the percentage
ownership of each.

41.

For the period from January 1, 2007 through the
present, identify all of XXXXXX current and
former officers, directors, and principals.

42.

Provide all tax opinions or other documents on
which XXXXXX relied in claiming deductions for
premium payments under the Captive Insurance
Program on its federal income tax returns for
the taxable years 2011 and 2012.

43.

Identify all persons upon whose advice or
statements XXXXXX relied in claiming
deductions for premium payments under the
Captive Insurance Program on its federal
income tax returns for the taxable years 2011
and 2012.
a. Describe the advice or statements rendered
by each such person;
b. Specify the date(s) on which the advice or
statements were rendered;
c. Identify the individual(s) to whom the advice
or statements were rendered;
d. Provide all documents related to or reflecting
each such person’s advice or statements.

44.

Provide copies of all prior and subsequent year
Federal Income Tax returns filed by XXXXXXXX

App. 19
for which it participated in the Captive
Insurance Program.
45.

For taxable years ended 2011 and 2012 provide
the following:
a. Provide complete copy of financial
statements (either audited or compiled),
including all footnote disclosures.
b. Provide the following accountant’s work
papers, including but not limited to:
i. Chart of accounts and groupings
ii. Adjusting and closing entries
iii. Year-end working trial balance
iv. Year-end tax return work papers and
reconciliation schedules including all
Schedule M adjustments (including all of
the working papers for these
adjustments).
c. Provide the general ledger and/or detailed
trial balance. The general ledger details must
be complete and show ALL of the activity in
each account.
d. Provide an organizational chart. Please
include all foreign and domestic subsidiaries,
if applicable.
e. Provide corporate minutes.
f. Provide a description of XXXXXX activities.

App. 20
46.

Provide XXXXXX business plan and other
documents related to its goals, objectives, and
business strategies.

